HHS/OIG, Audit -"Review of Medicare Part B Payments to Hawaii Air Ambulance,"(A-09-03-00034)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Part B Payments to Hawaii Air Ambulance," (A-09-03-00034)
July 2, 2003
Complete
Text of Report is available in PDF format (2.42 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether Hawaii Air Ambulance (HAA) billed the Medicare program for transporting
beneficiaries to acute care hospitals as required under the Centers for Medicare and Medicaid Services (CMS) Carriers Manual
coverage guidelines.  Our review disclosed that HAA substantially complied with Medicare guidelines.  Using computer
analyses, we initially identified 283 claims that appeared not to have matching admissions to acute care hospitals or emergency
room services.  However, based on our review of HAA and hospital records for 104 claims, we found only 3 claims totaling
$2,938 were actually unallowable under Medicare guidelines.  For the remaining 101 claims, we found that the Medicare
beneficiaries were transported to acute care hospitals.  We recommended that Noridian Administrative Services (Noridian):  (i)
recover the $2,938; and (ii) educate HAA on the Medicare allowable air ambulance destinations.